FEDERAL PUBLIC DEFENDER
Southern District of Florida
www.fpdsouthflorida.org

Michael Caruso
Federal Public Defender

Location: Fort Lauderdale

Hector A. Dopico
Chief Assistant
March 15, 2021
Miami:
Helaine B. Batoff
Sowmya Bharathi
R. D'Arsey Houlihan
Supervising Attorneys
Stewart G. Abrams
Abigail Becker
Elizabeth Blair
Anshu Budhrani
Vanessa Chen
Eric Cohen
Tracy Dreispul
Christian Dunham
Daniel L. Ecarius
Aimee Ferrer
Julie Holt
Andrew Jacobs
Sara Kane
Ashley Kay
Lauren Krasnoff
Bunmi Lomax
Ian McDonald
Kate Mollison
Kirsten Nelson
Joaquin E. Padilla
Bonnie Phillips-Williams
Laura Sayler
Savita Sivakumar
Kate Taylor
Ft. Lauderdale:
Robert N. Berube
Bernardo Lopez,
Supervising Attorneys
Andrew Adler
Huda Ajlani-Macri
Janice Bergmann
Brenda G. Bryn
Timothy M. Day
Robin J. Farnsworth
Margaret Y. Foldes
Juan Michelen
Jan C. Smith
Gail M. Stage
Daryl E. Wilcox
West Palm Beach:
Peter Birch,
Supervising Attorney
Robert E. Adler
Lori Barrist
Scott Berry
Caroline McCrae
Kristy Militello
Fort Pierce:

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Tarahrick Terry v. United States, No. 20-5094
Dear Mr. Harris:
This morning, Respondent filed a letter confessing error. The
United States now agrees that Section 841(b)(1)(C) crack offenders
sentenced before August 3, 2010 have a “covered offense” under Section
404 of the First Step Act of 2018. Petitioner appreciates the United States’
new position. However, that belated reversal should not delay the Court’s
resolution of the question presented. For reasons of fairness and
efficiency, Petitioner urges the Court to resolve the question presented this
Term, as the Court originally intended.
In his certiorari-stage briefing, Petitioner stressed the importance
of deciding the question presented this Term. He explained that many
pre-August 3, 2010 Section 841(b)(1)(C) crack offenders were nearing the
end of their sentences. And offenders in the two (now three) circuits where
Section 841(b)(1)(C) offenders were deemed eligible for relief were
receiving meaningful sentence reductions, including to time served. Thus,
Petitioner explained, every day that passes without resolution of the
question presented is another day that he (and others similarly-situated)
remain subject to unfairly-long sentences. Accordingly, Petitioner urged
the Court to decide the question presented this Term. See Pet. 23–24; Pet.
Cert. Reply 5–6 & Appendix. The Court agreed, granting certiorari on
January 8, 2021. The Court recently set argument for April 20, 2021.

Panayotta Augustin-Birch
R. Fletcher Peacock

That the United States waited to confess error until today—the day
its merits brief was due and three months after the change in
administrations—should not be allowed to prejudice Petitioner and others
Miami
150 West Flagler Street
Suite 1500
Miami, FL 33130-1555
Tel: (305) 536-6900
Fax: (305) 530-7120

Ft. Lauderdale
One East Broward Boulevard
Suite 1100
Ft. Lauderdale, FL 33301-1842
Tel: (954) 356-7436
Fax: (954) 356-7556

West Palm Beach
450 Australian Avenue South
Suite 500
West Palm Beach, FL 33401-5040
Tel: (561) 833-6288
Fax: (561) 833-0368

Ft. Pierce
109 North 2nd Street
Ft. Pierce, FL 34950
Tel: (772) 489-2123
Fax: (772) 489-3997

who are similarly situated. Nor should the government’s untimely reversal of
position prevent the Court from promptly resolving a time-sensitive legal question
that has divided the circuits and that will affect whether many low-level crack
offenders continue to remain in custody. Such delay would be particularly unfair to
Petitioner Terry, whose term of imprisonment is set to expire in September 2021, a
fact brought to the Court’s attention at the certiorari stage. Cert. Reply 12. Were the
Court to delay resolving the question presented until next Term, many other Section
841(b)(1)(C) crack offenders would also see their sentences expire, denying them the
very relief that Congress sought to afford in Section 404.
In addition to being unfair to Petitioner and others like him, it would also be
inefficient to delay resolution until next Term. Petitioner has already filed his initial
brief. And seven groups of amici curiae have filed briefs supporting Petitioner. Those
amici not only include a diverse group of organizations but also United States
Senators from both political parties, the District of Columbia and 18 States, and
former federal judges and prosecutors. The efforts of counsel and amici would be
wasted were the Court to allow the government to delay resolution until next Term.
As the government indicates in its letter, the appropriate course may be to
appoint amicus curiae to defend the judgment below. And, if the Court believes that
oral argument will assist in its consideration of the case, it could hold argument in
May, as it did in numerous cases last Term. Petitioner stands ready to comply with
any expedited deadlines for briefing and argument should the Court deem them
necessary to ensure resolution of the question presented this Term. Undersigned
counsel would be happy to work with your office, the United States, and any amicus
curiae in order to jointly agree upon an appropriate schedule.
Respectfully submitted,
/s/ Andrew L. Adler
Assistant Fed. Public Defender
Counsel for Petitioner

cc: Elizabeth B. Prelogar,
Acting U.S. Solicitor General (by e-mail)

2

